CERTIFICATE OF WORD COUNT
NO. 19-247
City of Boise,
Petitioner(s),
v.
Robert Martin, et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the LEAGUE OF OREGON CITIES
AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S) contains 3908 words, including the parts of
the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
September 25, 2019

SCP Tracking: Joyce-1455 SW Broadway, Suite 1900-Cover Cream

